OIG Audit Report GR-40-00-006
Office of Community Oriented Policing Services Grants to the Jacksonville, Florida, Sheriff's Department
Audit Report GR-40-00-006
February 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Consolidated City of Jacksonville and Duval County, Florida, Sheriff's Department (the grantee).  The purpose of the grants is to enhance community policing. The grantee was awarded a total of $7,322,250 to hire 73 new police officers and redeploy 73.9 existing full-time officers into community policing.

	We reviewed the grantee's compliance with eight essential grant conditions.  We found the grantee's budgeting for officers, hiring of officers, local matching funds, retention of officer positions, community policing practices, and reporting practices acceptable.  However, we found weaknesses in other areas as identified below.  As a result, we determined that costs of $1,952,357 were questionable. 1

For the hiring grant, $804,434 in salaries and fringe benefits were claimed above the allowable amounts authorized by the financial clearance memoranda.

	For the redeployment grant, we question $1,147,923, 64 percent of the cost incurred, because the grantee could only support redeployment of 26.94 of the required 73.9 full-time equivalents (FTEs) at the end of the grant period.

	For each year of the hiring grant, the local share percentages were not applied in accordance with the approved percentages.  

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix I.  Our audit objectives, scope and methodology appear in Appendix I.


Footnote
The Inspector General Act of 1988 contains our reporting requirements for questioned costs.  However, not all of our findings are dollar-related.  See Appendix III for a breakout of our dollar-related findings and a definition of questioned costs.